                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM




           We received an allegation that the subject's1 proposal2 contained text and figures from vendor's
           literature3that described the equipment proposed for purchase in the proposal, without direct
           citation. The vendor literature was included with the subject's proposal as supplementary
           material. Examination of the proposal showed no duplication of text or figures other than from
           the vendor's literature, and that the copied text was lightly paraphrased. We concluded that the
           subject was not attempting to take credit for the material, and that a cautioning letter to the
           subject would alert her to the potential problem in not providing specific attributions to such
           material in future proposals.

           Accordingly, this case is closed.




           ' Redacted.
           2
               Redacted.
               Redacted.



I'
 NSF OIG Form 2 (1 1/02)
